No. 20-107

 

In the Supreme Court of the United States

Cedar Point Nursery and Fowler Packing Co.,
Petitioners,
¥.

Victoria Hassid, in her official capacity as
Chair of the California Agricultural
Labor Relations Board, et al.,
Respondents.

 

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE
I hereby certify that on February 12, 2021, three copies of the Brief for the
American Federation of Labor and Congress of Industrial Organizations as Amicus
Curiae in Support of Respondents were served on each of the following counsel via

overnight delivery service:

Joshua Paul Thompson Joshua Patashnik

Wencong Fa California Department of Justice
Pacific Legal Foundation 455 Golden Gate Ave., Suite 11000
930 G Street San Francisco, CA 94102
Sacramento, CA 95814 Counsel for Respondents

Counsel for Petitioners

 

Washington, DC 20006

Executed on February 12, 2021.
